NO. 20-5

In the Supreme Court of the United States
SENATORS RICHARD BLUMENTHAL, RICHARD J. DURBIN, PATTY MURRAY, ELIZABETH
WARREN, AMY KLOBUCHAR, BERNARD SANDERS, PATRICK LEAHY, SHELDON
WHITEHOUSE, CHRISTOPHER A. COONS, MAZIE K. HIRONO, CORY A. BOOKER, KAMALA
D. HARRIS, MICHAEL F. BENNET, MARIA CANTWELL, BENJAMIN L. CARDIN, TOM
CARPER, CATHERINE CORTEZ MASTO, TAMMY DUCKWORTH, KIRSTEN E. GILLIBRAND,
MARTIN HEINRICH, TIM KAINE, EDWARD J. MARKEY, JEFF MERKLEY, CHRIS MURPHY,
JACK REED, BRIAN SCHATZ, TOM UDALL, CHRIS VAN HOLLEN, AND RON WYDEN,
Petitioners
v.
DONALD J. TRUMP, IN HIS OFFICIAL CAPACITY
AS PRESIDENT OF THE UNITED STATES, Respondent
PROOF OF SERVICE
I, Katharine M. Mapes, counsel for amici curiae Harold H. Bruff, Peter M.
Shane, Peter L. Strauss, and Paul R. Verkuil, and a member of the Supreme Court
Bar, hereby certify that on the tenth day, August, 2020, I caused the three (3) copies
of the BRIEF OF HAROLD H. BRUFF, PETER M. SHANE, PETER L. STRAUSS,
AND PAUL R. VERKUIL AS AMICI CURIAE SUPPORTING PETITIONERS to be
served on:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Service was made by United States Postal Service first-class mail, as well as
by e-mail.

In addition, I certify that on the tenth day, August 2020, I caused an
electronic copy of the BRIEF OF HAROLD H. BRUFF, PETER M. SHANE, PETER
L. STRAUSS, AND PAUL R. VERKUIL AS AMICI CURIAE SUPPORTING
PETITIONERS to be served on:
Brianne Jenna Gorod
Constitutional Accountability Center
1200 18th Street, NW
Suite 501
Washington, DC 20036
brianne@theusconstitution.org
Pursuant to the Court’s April 15, 2020 Order relating to the ongoing public
health concerns relating to COVID-19, counsel for Petitioners have agreed to
electronic-only service of this brief.

Respectfully submitted,

/s/ Katharine M. Mapes
Katharine M. Mapes
SPIEGEL & MCDIARMID LLP
1875 Eye Street, N.W. Ste. 700
Washington, DC 20006
Counsel of Record for Amici Curiae
Harold H. Bruff, Peter M. Shane, Peter
L. Strauss, and Paul R. Verkuil

